                                           MOO090034 Closeout

     During a routine check of the NIH proposal system, a Program Official noticed that the Principal
    'Investigator had a proposal of similar subject under review at the National Institutes of Health
     (NIH) but did not list the proposal on the current and pending support page (NSF Form 1239) at
     the time the proposal was submitted. The proposal',2 was bought to the Office of Inspector
     General for review of this potential misconduct issue.

,   After careful review of the information provided, we learned that at the time the principal
    investigator3 submitted his NSF proposal he also had a proposal under review at National
    Institutes of Health, National Institute of General Medical Sciences (NIWNIGMS)~.      A letter5
    was sent to the investigator in which he was asked to explain this omission. The investigator
    responded via emai16with an explanation (followed by hard copy). The investigator took full
    responsibility for the omission relaying that there must have been some miscornmunicat~on
    between he and his administrative assistant7. He further explained that in his current grant
    submission to NSF the current and pending support (NSF Form 1239) was complete. Both the
    NSF and NIH proposals were subsequently declined.

    A detailed analysis of the current and ending support,statement we requested along with the
                                          B
    most recent grant submission to NSF, indicates that the omission of NIWNIGMS proposal on
    NSF Form 1239 in the previous grant submission was not a deliberate attempt to mislead NSF.
    The submission of the most recent grant submission to NSF was completed prior to this inquiry.
    Therefore, OIG finds that this matter does not warrant further investigation.




                  Footnotes Redacted
